Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




STATE STRATEGIES TO CONTAIN
   MEDICAID DRUG COSTS




                     Inspector General

                      October 2003
                     OEI-05-02-00680
               Office of Inspector General

                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
state Medicaid fraud control units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
A B S T R A C T



                              Escalating Medicaid drug expenditures, combined with strained
                              State budgets, have led States to contain Medicaid drug costs.
                              Federal Medicaid law and regulation prevent States from
                              benefiting from some cost containment tools widely used by
                              private purchasers. However, States do exercise flexibility
                              within Federal Medicaid law and regulation to employ three
                              main drug cost containment strategies. These key strategies
                              contain costs by (1) limiting Medicaid reimbursement for drugs
                              (reported by 32 States); (2) shifting use from higher to lower
                              cost drugs (39 States); and (3) limiting the amount of
                              prescription drugs a beneficiary can obtain within a given time
                              period (25 States). Maximizing a State’s ability to contain drug
                              costs can provide a significant fiscal benefit to both State and
                              Federal Medicaid budgets. However, there are significant
                              challenges to maximizing drug cost savings, including a lack of
                              accurate drug price information and stakeholder opposition to
                              cost containment efforts.




O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS    i
E X E C U T I V E                                   S U M M A R Y 





                               OBJECTIVE
                               To describe States’ key strategies to contain their Medicaid
                               outpatient prescription drug costs.


                               BACKGROUND
                               Medicaid prescription drug coverage is one of the most
                               expensive and fastest growing health care expenditures. In
                               fiscal year (FY) 2001, Medicaid expenditures for prescription
                               drugs totaled approximately $20 billion, or 9 percent of the
                               Medicaid budget. From 1997 to 2001, Medicaid expenditures for
                               prescription drugs grew at more than twice the rate of total
                               Medicaid spending.
                               Increasing Medicaid drug costs create concern for States. In FY
                               2002, 40 States faced budget shortfalls that totaled nearly $40
                               billion. In a recent survey, 36 States identified prescription
                               drug costs as the top Medicaid cost driver in FY 2001, and 12
                               additional States listed drugs as 1 of the top 3.
                               Federal Medicaid law and regulation prevent States from
                               benefiting from the array of cost containment tools available to
                               private purchasers. However, States retain some flexibility to
                               set Medicaid drug reimbursement levels and to implement a
                               variety of cost saving measures.
                               To assess States’ strategies to contain their Medicaid drug costs,
                               we collected information from multiple sources, including a
                               national survey of State Medicaid pharmacy directors, State
                               Medicaid plans, State cost saving reports, and interviews with
                               staff from the Centers for Medicare & Medicaid Services (CMS)
                               and State Medicaid agencies.


                               FINDINGS
                               REDUCE PRICE: Thirty-two States Reported Strategies Designed
                               to Reduce the Price Medicaid Pays for Drugs as Key to Cost
                               Containment. Seventeen States contain drug costs by lowering
                               the rate at which they reimburse pharmacies for drugs, and 10
                               States reported annual savings up to $21.7 million from these
                               changes. However, States also face barriers to setting


 O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS    ii
E   X   E      C      U       T       I   V   E        S     U     M          M   A   R    Y


                                              reimbursement rates reflective of actual pharmacy acquisition
                                              costs, including lack of accurate drug prices and pharmacy
                                              opposition to reimbursement reductions.
                                              When asked to identify top cost containment strategies, 24
                                              States reported State maximum allowable cost (MAC) programs,
                                              which establish maximum reimbursement amounts for groups of
                                              equivalent drugs (i.e., a brand name drug and its generic
                                              equivalents). Seventeen of these States reported cost savings
                                              from their MAC programs, ranging up to $45.8 million per year.
                                              SHIFT USE: While Required to Cover Most Drugs, 39 States
                                              Encourage a Shift from Higher to Lower Cost Drugs. Thirty-nine
                                              States report cost containment strategies aimed at shifting
                                              Medicaid prescription drug use toward lower cost drugs as
                                              central to their efforts to contain costs. These strategies include
                                              prior authorization programs (29 States), preferred drug lists
                                              (20), generic substitution requirements (15), and beneficiary cost
                                              sharing (10).
                                              Prior authorization programs, which require State-sanctioned
                                              approval before particular drugs can be dispensed, discourage
                                              physicians from prescribing these drugs unless medically
                                              necessary. Sixteen States identified savings, which ranged up to
                                              $89 million, through their prior authorization programs.
                                              States create preferred drug lists by identifying the most cost-
                                              effective drugs in each therapeutic class. States encourage
                                              physicians to prescribe preferred drugs through outreach efforts
                                              and/or by creating disincentives for prescribing non-preferred
                                              drugs. States may achieve additional savings by obtaining
                                              supplemental rebates from drug manufacturers. Six States
                                              saved up to $127 million annually through preferred drug lists.
                                              However, industry opposition to preferred drug lists creates
                                              challenges.
                                              LIMIT QUANTITY: While Required to Maintain Sufficient “Amount,
                                              Duration, and Scope” of Benefits, 25 States Limit the Quantity of
                                              Drugs Used as a Central Strategy to Contain Costs. Eighteen
                                              States limit (1) the number of prescriptions filled in a specified
                                              time period, such as six prescriptions per month; (2) the amount
                                              of a drug, such as a maximum daily dosage; or (3) the frequency
                                              of dispensing a drug, such as limits on early refills as a central



        O E I - 05 - 02 - 0 0 6 8 0           STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS     iii
E   X   E      C      U       T       I   V   E        S     U     M          M   A   R    Y


                                              means to contain costs. Nine States estimated annual savings
                                              of up to $51 million through quantity limits.
                                              Fourteen States find prospective drug utilization reviews
                                              important to drug cost containment because they help to prevent
                                              duplicative, contraindicated, or medically unnecessary
                                              prescriptions from being dispensed. These preventive measures
                                              produce annual State savings ranging up to $27 million per
                                              State.


                                              CONCLUSION
                                              Maximizing States’ ability to contain drug costs can provide a
                                              significant fiscal benefit to both State and Federal Medicaid
                                              budgets. In 2002, CMS centralized its efforts to provide
                                              guidance regarding States’ Medicaid pharmacy programs
                                              through shifting responsibility for State plan amendment
                                              approval from CMS regional offices to its headquarters location.
                                              We support CMS’s efforts to provide consistent, timely, and
                                              pertinent information to State Medicaid pharmacy
                                              representatives.




        O E I - 05 - 02 - 0 0 6 8 0           STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS   iv
T A B L E                            O F               C O N T E N T S 




                     A B S T R A C T . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i




                     E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii





                     I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1





                     F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


                                 32 States Reduce Price Paid for Drugs.............................................. 7


                                 39 States Shift Use to Lower Cost Drugs ................ ………………. 15


                                 25 States Limit Drug Quantities ..................................................... 25



                     C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30





                     A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31


                                 Additional State Savings Projections for Preferred Drug Lists. ….. 31




                     A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32



                     E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33





O E I - 05 - 02 - 0 0 6 8 0          STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS                                             v

I N T R O D U C T I O N 





                              OBJECTIVE
                              To describe States’ key strategies to contain their Medicaid
                              outpatient prescription drug costs.


                              BACKGROUND
                              Medicaid Drug Expenditures
                              All State Medicaid programs have elected to include prescription 

                              drug coverage, which is one of the most expensive Medicaid 

                              benefits. In fiscal year (FY) 2001, Medicaid expenditures on 

                              prescription drugs totaled approximately $20 billion, 

                              representing 9 percent of the annual Medicaid budget. 1 The 

                              Medicaid program is the largest payer of prescription drugs 

                              nationally, representing 14 percent of the drug market. 2 The 

                              Federal Government contributes a matching percentage of State 

                              Medicaid outlays, ranging from 50 to 83 percent, depending on 

                              the State’s per capita income. 3

                              Payment for prescription drugs is the fastest growing health 

                              care expenditure. Nationally, total spending for prescription 

                              drugs rose from $48.2 billion in 1992 to $141.8 billion in 2001.4

                              Likewise, Medicaid expenditures for prescription drugs grew at 

                              more than twice the rate of total Medicaid spending from FYs 

                              1997 to 2001.5 The Centers for Medicare & Medicaid Services 

                              (CMS) projects that Medicaid drug expenditures will continue to 

                              increase by an average rate of 12.7 percent per year through 

                              2011.6 In FY 2002, 40 States faced budget shortfalls that 

                              totaled nearly $40 billion. The gap between State revenue and 

                              total spending is expected to widen to $58 billion during FY 

                              2003.78 These expected increases are significant in light of State 

                              budget constraints. Further, in a recent survey, 36 States 

                              identified prescription drug costs as the top Medicaid cost driver 

                              in FY 2001, and 12 additional States listed drugs as 1 of the top 

                              3.9

                              Medicaid Pharmacy Reimbursement 

                              Drug Cost Reimbursement. For Medicaid, CMS sets maximum 

                              drug reimbursement limits to ensure that the Federal 

                              Government acts as a prudent buyer.10 Within these Federal 

                              parameters, each State determines its own pharmacy 

                              reimbursement formula(s).


O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS   1
I   N   T    R       O      D         U   C   T   I    O     N


                                              For certain multiple source drugs with a sufficient number of
                                              equivalent products and at least three suppliers, CMS sets
                                              specific Federal upper limit (FUL) amounts. FUL equals 150
                                              percent of the lowest published priced version of the drug listed
                                              in national pricing compendia.11 FUL acts as a ceiling, and
                                              States may reimburse below this amount.
                                              For drugs without a FUL, the Medicaid drug reimbursement
                                              limit is the lower of (1) the pharmacist’s usual and customary
                                              charge; (2) the estimated [pharmacy] acquisition cost (EAC); or
                                              (3) the State’s maximum allowable cost (MAC), if applicable. 12
                                              EAC is the State Medicaid agency’s best estimate of the price
                                              generally paid by providers for a drug.13 CMS does not prescribe
                                              a method for calculating estimated acquisition cost; instead,
                                              each State establishes and specifies its own EAC formula in its
                                              State plan. Conceptually, State MAC programs resemble the
                                              FUL program in that they establish maximum reimbursement
                                              amounts for groups of equivalent drugs.
                                              Dispensing Fees. In addition to reimbursing pharmacies for the
                                              cost of the drug (also known as the ingredient cost), States are
                                              required to determine “reasonable” dispensing fees.14 This fee
                                              represents the charge for the professional services provided by a
                                              pharmacist when dispensing a prescription.
                                              Medicaid Drug Rebate Program
                                              In addition to setting reimbursement limits, the Medicaid
                                              program limits expenditures by obtaining rebates from drug
                                              manufacturers. Federal statute mandates that in order for their
                                              drugs to be reimbursed by Medicaid, drug manufacturers must
                                              generally enter into rebate agreements and pay quarterly
                                              rebates to the State Medicaid agencies. 15 CMS calculates rebate
                                              amounts using a statutory formula based on the average
                                              manufacturer price at which manufacturers sell drugs to
                                              wholesalers. a

                                              States’ Flexibility to Contain Medicaid Drug Costs
                                              Federal law and regulations governing the Medicaid program
                                              include provisions, such as required coverage of almost all drugs
                                              and limited beneficiary cost sharing. These constraints prevent
                                              States from benefiting from certain cost saving tools available to

                                aThis summary is not meant to capture the full complexity of the Federal Medicaid rebate formula,
                                which includes additional calculations using best price and an inflation factor.


        O E I - 05 - 02 - 0 0 6 8 0           STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS                2
I   N   T    R       O      D         U   C   T    I    O    N


                                              private purchasers. b States retain some flexibility, however, to
                                              set Medicaid drug reimbursement levels and to implement a
                                              variety of cost saving measures within Federal Medicaid
                                              parameters. Common strategies include:
                                              o	       Limits on Amount, Duration, and Scope. States may limit
                                                       any Medicaid benefit, including prescription drugs, as long
                                                       as each benefit is “sufficient in amount, duration, and scope
                                                       to reasonably achieve its purpose.”16 Within this guideline,
                                                       States may set limits on utilization, such as the number of
                                                       prescriptions per month for each beneficiary, the amount of
                                                       medication per prescription, or the number of refills.
                                              o	       Prior Authorization. A State may require providers to obtain
                                                       prior authorization from the Medicaid agency before
                                                       dispensing a particular drug or class of drugs. However,
                                                       Medicaid agencies must respond to providers within 24
                                                       hours, and pharmacies must dispense a 72-hour supply of
                                                       the drug to the beneficiary in an emergency situation.
                                              o	       Preferred drug lists. In general, States that offer the
                                                       Medicaid prescription drug benefit must cover all FDA-
                                                       approved drugs produced by manufacturers with Medicaid
                                                       rebate agreements. However, States can encourage the use
                                                       of “preferred” drugs, so long as “non-preferred” drugs are
                                                       available through an exception process like prior
                                                       authorization.17
                                              o	       Supplemental Rebates. States may negotiate with drug
                                                       manufacturers to receive supplemental rebates in addition
                                                       to Federally-mandated rebates. 18 Drug manufacturers may
                                                       agree to provide States with supplemental rebates in
                                                       exchange for including their drugs on the State’s preferred
                                                       drug list.
                                              o	       Generic Substitution. States may require the use of an
                                                       equivalent generic drug in place of a brand name drug,
                                                       unless the physician either deems the brand name drug
                                                       medically necessary or obtains prior authorization.
                                              o	       Cost sharing. Federal law allows States to require “nominal”
                                                       cost sharing or co-payments from beneficiaries. 19 Co­

                                b Federal law allows State Medicaid programs to exclude only a limited list of specific drugs and drug
                                classes from coverage.


        O E I - 05 - 02 - 0 0 6 8 0           STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS                   3
I   N   T    R       O      D         U   C   T    I    O    N


                                                       payments may not exceed $3 per prescription.20 Also,
                                                       pharmacists may not withhold a drug from a beneficiary who
                                                       cannot afford to pay the co-payment. 21
                                              o	       Provider Education. States’ provider education or “counter-
                                                       detailing” efforts seek to balance drug manufacturers’ direct
                                                       marketing to physicians and consumers by providing
                                                       information on generic alternatives and less expensive brand
                                                       name drugs.
                                              o	       Drug Utilization Review. Federal Medicaid law requires
                                                       States to perform drug utilization review (DUR) to examine
                                                       the appropriateness, quality, and medical necessity of drug
                                                       use.22 In addition to improving quality of care, DUR can
                                                       result in cost savings by reducing medically inappropriate
                                                       drug use.
                                              Related Work by the Office of Inspector General
                                              The Office of Inspector General (OIG) has issued a significant
                                              body of work related to Medicaid drug pricing issues. Numerous
                                              OIG reports have concluded that Medicaid pays more than
                                              several other Federal and private purchasers for a wide variety
                                              of drugs. Also, a 2002 OIG report, “Medicaid Pharmacy -
                                              Additional Analyses of the Actual Acquisition Cost of
                                              Prescription Drug Products” (A-06-02-00041) found that the
                                              data upon which States base pharmacy reimbursement
                                              overstates pharmacy acquisition costs. In these reports, OIG
                                              recommends that CMS review the current reimbursement
                                              methodology, work with States to find a method that more
                                              accurately estimates pharmacy acquisition cost, and initiate a
                                              review of Federal Medicaid rebates.


                                              SCOPE
                                              This report is limited to describing State Medicaid key
                                              strategies for containing costs of prescription drugs purchased
                                              through the fee-for-service component of Medicaid. We do not
                                              include strategies negotiated by Medicaid managed care
                                              organizations. We did not examine the Federal rebate drug
                                              program; however, we did include States’ efforts to acquire
                                              supplemental drug rebates beyond the mandated Federal
                                              rebates.



        O E I - 05 - 02 - 0 0 6 8 0           STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS        4
                              We did not evaluate the outcomes of individual States’ cost
                              containment strategies. However, we reviewed State
                              documentation of their measured or estimated cost savings,
                              when available.


                              METHODOLOGY
                              To provide descriptive information on all States’ Medicaid drug
                              cost containment efforts, we conducted a fax survey of State
                              Medicaid directors and pharmacy directors. Forty-three States
                              responded to our survey between November 2002 and February
                              2003. This survey requested information on efforts that States
                              considered to be their top drug cost containment strategies or
                              wished to highlight. States’ responses included key efforts
                              already in place and those that they planned to implement.
                              Where multiple States adopted similar measures, we
                              highlighted particular States based on characteristics, such as
                              geography or size of the State’s Medicaid population.
                              States were asked to submit relevant documentation of their
                              efforts, including evaluations and supporting documentation of
                              pharmacy cost savings, as applicable. State-submitted
                              documents included outcome evaluations and analyses of drug
                              cost data, reports to State legislatures, annual reports by the
                              drug utilization review board, provider bulletins and
                              instructions, and provider and beneficiary education materials.
                              We did not ask States for a comprehensive list of their efforts as
                              this data is available from other researchers. Health Strategies
                              Consultancy (contracted by CMS) and George Washington
                              University (contracted by the Kaiser Family Foundation) have
                              shared such data with us, and we have incorporated it
                              contextually, where appropriate.
                              We interviewed staff from CMS central office and four regional
                              offices. As needed, we collected additional information from
                              State plan amendments, State Medicaid manuals, and other
                              documents from several States. We interviewed selected State
                              respondents, primarily from Oregon, Texas, Florida, Arkansas,
                              Vermont, and Michigan. We interviewed respondents from
                              these particular States because these States employ a variety of
                              innovative or successful cost containment strategies and are
                              recognized by CMS, States, and other experts as leaders in


O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS   5
I   N   T    R       O      D         U   C   T   I    O     N


                                              particular areas of drug cost containment. In these States, we
                                              interviewed the Medicaid director, pharmacy director, and other
                                              Medicaid staff. We also interviewed experts, including
                                              representatives from State pharmacy benefit managers, drug
                                              utilization review boards, pharmacy and industry associations,
                                              consumer interest groups, and researchers.
                                              Our review was conducted in accordance with the Quality
                                              Standards for Inspections issued by the President’s Council on
                                              Integrity and Efficiency.




        O E I - 05 - 02 - 0 0 6 8 0           STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS   6
            F I N D I N G S 




REDUCE PRICE: Thirty-two States Reported
Strategies Designed to Reduce the Price Medicaid                                 Within Federal guidelines that
Pays for Drugs as Key to Cost Containment                                        seek to ensure that the Federal
                                                Government acts as a prudent purchaser, each State determines
                                                its own pharmacy reimbursement methodology.23 State
                                                strategies to reduce drug reimbursement prices include lowering
                                                their standard pharmacy reimbursement formulas in order to
                                                pay less for Medicaid drugs, in general, and setting State
                                                maximum allowable costs (MACs) for specific drugs with generic
                                                equivalents. Table 1 displays the number of States that
                                                reported reduction to reimbursement formulas, MAC programs,
                                                or both strategies in their survey responses as key methods used
                                                to contain Medicaid drug costs.

                                          Table 1. Key State strategies to reduce drug reimbursement prices

                                            States that reduced reimbursement formula and set MACs                9
                                            States that reduced reimbursement formula only                        8
                                            States that set MACs only                                             15
                                            Total                                                                 32
                                          Source: OIG National Survey, 2002


                                                Rising drug prices contribute to States’ increasing Medicaid
                                                pharmacy expenditures and, in turn, to their mounting budget
                                                deficits. In 2001, the average brand name prescription drug
                                                price climbed to $71.18, a nine percent increase from 2000.
                                                During this same time, the average generic drug price rose
                                                14 percent, to $21.96.24

                                                Seventeen States Lowered their Estimates of Pharmacy Acquisition
                                                Cost.
                                                When asked to identify top cost containment strategies, 17
                                                States report changes to their estimated acquisition cost (EAC)
                                                formula, which, along with pharmacy’s usual and customary
                                                charge, is the basis of reimbursement for drugs without a
                                                designated upper payment limit. These States lowered their
                                                EAC formulas to reduce reimbursement and more accurately
                                                reflect pharmacies’ actual acquisition costs. Previous OIG work



            O E I - 05 - 02 - 0 0 6 8 0         STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS        7
                                  found evidence that States overestimate actual pharmacy
                                  acquisition costs. 25
                                  Nationally, 43 States base their formulas exclusively on average
                                  wholesale price (AWP) minus a percentage-based discount, and
                                  6 States use wholesale acquisition cost (WAC) plus some
                                  percentage-based mark-up. AWP and WAC are published
                                  reference prices. Typically, States’ reimbursement changes
                                  increase the discount off AWP. For example, Nevada revised its
                                  estimated acquisition cost formula from AWP minus 10 percent
                                  to AWP minus 15 percent, while Oregon increased its discount
                                  off AWP from 11 to 14 percent.
                                  Of the 17 States reporting reimbursement rate changes as key
                                  to cost containment, 5 have refined their estimated acquisition
                                  cost formulas to better reflect the complexity of the
                                  pharmaceutical marketplace. Instead of using a single EAC
                                  formula for all drugs, these States adopted a tiered formula to
                                  account for differences in pharmacy acquisition costs between
                                  brand name and generic drugs. Table 2 lists these formulas.
                                  The tiered reimbursement formulas incorporate larger discounts
                                  for generic drugs, which is consistent with previous OIG
                                  findings that AWP overstates generic drugs to a greater degree
                                  than brand name drugs. Specifically, OIG found that, on
                                  average, AWP overstated pharmacy acquisition costs for brand
                                  name drugs by 22 percent and overstated acquisition costs for
                                  generic drugs by 66 percent. c




                       cThe OIG report (A-06-02-00041) provided a further break down of variation within the “brand” and
                       “generic” categories. More specifically, AWP overstated acquisition costs of single source brand name
                       drugs by 17.2%, multi-source brand name drugs (without Federal upper limits (FULs)) by 24.4%, multi-
                       source generic drugs (without FULs) by 54.2 percent, and all drugs with FULs by 72.1%.


O E I - 05 - 02 - 0 0 6 8 0       STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS                   8
                              Table 2. State EAC Changes Involving Tiered Formulas


                              State           Previous EAC                          Revised EAC
                                                                                    Brand: AWP-14%
                                AR            AWP-10.5%                             Generic: AWP-20%
                                                                                    Brand: AWP-13.5%
                                CO            AWP-12%
                                                                                    Generic: AWP-35%
                                              Brand: WAC+8%                         Brand: AWP-12%
                                 IL
                                              Generic: WAC+12%                      Generic: AWP-25%
                                                                                    Brand: AWP-11%
                                KS            AWP-10%                               Generic: AWP-27%
                                                                                    Brand: AWP-14%
                                WA            AWP-11%
                                                                                    Generic: AWP-50%

                              Sources: OIG National Survey, State Plan Amendments, and State websites



                              Lack of Accurate Information on Drug Prices. As reported by 12
                              States, the lack of accurate drug pricing information constitutes a
                              significant barrier to containing Medicaid drug costs. Most States
                              rely on AWP and/or WAC cost to determine pharmacy
                              reimbursement. These are reference prices that States obtain
                              from First Databank, a private company which issues a national
                              drug pricing compendium. Reports by the OIG and other
                              researchers have found AWP to substantially overstate
                              pharmacies’ actual acquisition costs and have discredited its
                              validity. OIG audits have also suggested that WAC is unreliable.
                              Despite the widely recognized unreliability of AWP and WAC as
                              a measure of pharmacy acquisition cost, States have few
                              alternative sources for drug prices. Actual sales data are
                              proprietary, and only three States indicated that they regularly
                              obtain additional price information from drug manufacturers,
                              pharmacies, or other sources. One State criticized the
                              “obfuscation of price” by drug manufacturers. Several States
                              suggested that CMS share average manufacturer price (AMP)
                              data with States. CMS collects AMP from manufacturers as
                              part of the Federal drug rebate program, but the agency does
                              not share these prices with States. OIG has recommended that
                              CMS provide States with AMP. However, CMS has not
                              implemented this recommendation due to legal issues. 26
                              One advantage of using AMP to more accurately estimate
                              pharmacy acquisition cost is that AMP is a statutorily-defined
                              price calculated from actual sales and subject to audit by the
                              Department. Texas recently passed legislation requiring

O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS           9
                                 manufacturers to provide AMP to the State Medicaid agency;
                                 however, many manufacturers have not yet complied.


                              Profile of Pharmacy Reimbursement by Texas Medicaid

       Texas stands out among Medicaid programs in its aggressive pursuit of accurate drug
       pricing information and its efforts to reflect the complexity of the pharmaceutical
       marketplace. Rather than relying solely on the national compendia used by most
       States to obtain AWP and WAC, Texas requires drug manufacturers to submit “cost to
       wholesaler” and “direct” prices to the Medicaid agency, as well as AMP data. Direct
       prices represent sales directly from manufacturers to pharmacies, rather than through
       wholesalers. “Cost to wholesaler” is conceptually equivalent to WAC, but drug
       manufacturers must certify these prices, which may increase their accuracy.

       Texas also uses a complex system for estimating pharmacy acquisition cost that takes
       into account how the pharmacy purchased the drug. If the drug is purchased through a
       wholesaler, Texas applies its EAC formula. If a pharmacy obtains the drug through a
       warehouse, Texas modifies its methodology to account for the volume discount
       associated with warehouse purchasing. Finally, Texas reimburses at the direct price if
       the drug purchase is direct from the manufacturer.




                                 CMS’s primary role is to approve the State plan amendments
                                 required for a State’s pharmacy reimbursement change. To
                                 obtain approval, States must submit documentation showing
                                 that the new estimated acquisition cost formula represents the
                                 State’s “best estimate of the price generally, and currently, paid
                                 by providers” for the drug.27 According to CMS staff, acceptable
                                 evidence includes audits of pharmacy acquisition costs, and
                                 reviews of pharmacy reimbursement by other payers, or by
                                 surrounding States’ Medicaid agencies.
                                 CMS considers the establishment of pharmacy reimbursement
                                 rates to be a State prerogative.28 However, 10 States report
                                 wanting to receive additional reimbursement guidance,
                                 including more accurate drug price information, from CMS. In
                                 addition to specific requests for AMP, States also look for
                                 guidance from CMS in setting accurate drug reimbursement
                                 estimates and for support in overcoming stakeholder opposition
                                 to reimbursement changes.
                                 Pharmacy Opposition to Reimbursement Reductions. States
                                 often face resistance to changing their estimated pharmacy
                                 acquisition cost formulas because reduced Medicaid drug

O E I - 05 - 02 - 0 0 6 8 0      STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS   10
                              reimbursement decreases pharmacies’ revenue. Of the 17 States
                              that reported reductions to their EAC formula as an important
                              cost containment strategy, all except 2 reported pharmacy
                              opposition as a barrier to such efforts. Twelve additional States
                              also reported pharmacy opposition as a barrier to reducing
                              pharmacy reimbursement.
                              It is important to distinguish between two types of costs for
                              which Medicaid reimburses pharmacies: (1) the cost of the drug
                              itself (ingredient cost) and (2) the cost associated with
                              dispensing the drug. States’ estimated acquisition cost formulas
                              represent the ingredient cost the provider paid for the drug,
                              while dispensing fees cover the other professional costs of
                              dispensing the drug.29 The reductions to EAC discussed in this
                              section address only this ingredient cost, not the additional
                              dispensing fee.
                              States face competing demands as they reconcile the need to
                              reduce drug prices with the need to maintain adequate
                              pharmacy participation in Medicaid. Concerns about
                              beneficiary access influence attempts to reduce drug
                              reimbursement. In 2002, Massachusetts substantially scaled
                              back proposed drug reimbursement reductions after 3 major
                              pharmacy chains threatened to stop serving Medicaid
                              beneficiaries. 30 In 2002, Washington successfully reduced
                              pharmacy reimbursement while acting to protect beneficiary
                              access to drugs through implementing a pharmacy mail order
                              service and offering transportation services to beneficiaries in
                              rural areas with limited pharmacy participation. 31
                              Savings Attributed to Changing States’ Reimbursement Formulas.
                              Two States, Arizona and Washington, measured cost savings
                              achieved through reductions in reimbursement, and eight
                              additional States provided estimates or projections of cost
                              savings attributed to their EAC changes. States’ annual savings
                              ranged from $500,000 to $21.7 million, as shown in Table 3.
                              States’ savings represent a proportion of their total FY 2001
                              drug expenditures that ranged from less than 1 percent to more
                              than 21 percent.




O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS    11
                                     Table 3. Savings from Reductions in EAC Reimbursement Formulas

                                                                                                Savings as Percent
                                                                 Projected/Estimated
                                                                                                of State’s FY 01
                                              State                Annual Savings
                                                                                                Drug
                                                                     (in millions)
                                                                                                Expenditures
                                                NV                   $9.6 *                            21.3%
                                                AZ                   $0.5 (actual)                     19.3%
                                               WA                    $21.7 (actual)                    5.9%

                                                KY                   $11.4                             2.3%
                                                TX                   $20.3                             1.9%
                                                OH                   $16                               1.8%
                                                OR                   $3                                1.6%
                                                CO                   $1.4                              1.1%
                                                KS                   $1.5                              1.0%
                                                NE                   $1.2                              0.9%

                                     Source: OIG National Survey, 2002

                                     *Nevada projected $2.4 million/quarter. We used this rate to estimate
                                     annual savings.

                                     Twenty-Four States Reported State Maximum Allowable Cost Programs
                                     to Rein in Drug Costs as Central to Cost Containment.
                                     Beyond the national Federal upper limits (FULs), States can
                                     achieve additional savings by setting State maximum allowable
                                     costs (MACs). Twenty-four States identified their MAC program
                                     as a successful drug cost containment effort. Conceptually,
                                     State maximum allowable cost programs resemble the Federal
                                     upper limit program in that they establish maximum
                                     reimbursement amounts for groups of equivalent drugs, i.e., a
                                     brand name drug and its generic equivalents.
                                     States with MAC programs achieve additional cost savings by
                                     (1) setting reimbursement limits for multisource drugs not covered
                                     by the FUL program, and (2) setting MACs at lower amounts than
                                     existing FULs. While the current FUL list includes less than 200
                                     drug entities out of thousands of multisource drugs, Texas has
                                     established MACs for 837 drug entities. d32 South Carolina
                                     reimburses at 10 percent below the FUL.


                       d   A drug entity includes the multiple strengths and forms in which a particular drug is available.


O E I - 05 - 02 - 0 0 6 8 0          STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS                   12
                              To set MACs, States commonly employ multiple methodologies and
                              sources of drug price information. Eleven States report conducting
                              pharmacy surveys or invoice reviews. Minnesota surveys the prices
                              paid by private payers with State contracts, obtains actual
                              acquisition costs from some pharmacies, and consults the MACs set
                              by other State Medicaid agencies. Idaho and Michigan also consult
                              other States’ MAC lists; Michigan additionally reviews
                              reimbursements by third party insurers. Six States rely on
                              contracted vendors to set their MACs.
                              Seventeen of the 24 States provided actual or projected cost savings
                              associated with their MAC program. Annual savings ranged from
                              $575,000 to $45.8 million. Wyoming, which included only 3 drug
                              entities during its MAC program’s first quarter of operation,
                              measured savings of $143,603 for that quarter. These savings
                              represent just over 2 percent of the State’s average quarterly drug
                              costs. Tables 4 and 5 below provide reported savings by State.




O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS   13
     Table 4. Actual MAC Savings                                                                     Table 5. Estimated/Projected MAC Savings

                Actual Annual                        Savings as Percent                                             Estimated         Savings as Percent
  State             Savings                           of State’s FY 01                              State           Annual Savings     of State’s FY 01
                 (in millions)                       Drug Expenditures                                              (in millions)     Drug Expenditures
   NE            $22                                      15.7%                                       OK              $10                    7.6%

   MO             $45.8                                   8.5%                                        OR              $12*                      6.2%

   VT             $4                                      4.9%                                       MN               $7                        3.3%
   WA             $15.3                                   4.2%                                       NC               $17.2                     2.2%

    HI            $1.5                                    2.5%                                       NM               $1                        2.2%

   GA             $5.5                                    0.9%                                       WY               $0.57#                    2.2%
  Total           $94.1                                      -                                        CT              $5                        2.1%

Source: OIG National Survey, 2002                                                                     TX              $16.4 +                   1.6%
                                                                                                      IA              $0.58                     1.2%

                                                                                                     MA               $7                        1.1%
                                                                                                     NH               $0.7                      0.9%
                                                                                                    Total             $77.5                      -

                                                                                               Source: OIG National Survey, 2002


* Oregon saved $1million/month from March to November, 2002; we used this rate to calculate annual savings.
# Wyoming saved $143,603 in the 1st quarter of its MAC program. We used this rate to calculate annual savings. This calculation is

conservative. Wyoming will add at least three additional drugs as during the first year.
+ Texas’s   $16.4 million in projected savings refers only to savings from the new drugs that Texas will add to its MAC in FY 2003.




                       O E I - 05 - 02 - 0 0 6 8 0         STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS                             14
SHIFT USE: While Required to Cover Most
                                                                          States implement a variety of
Drugs, 39 States Encourage a Shift from Higher                            cost containment strategies
to Lower Cost Drugs                                                       aimed at shifting Medicaid
                                          prescription drug use toward lower cost drugs. Thirty-nine
                                          States in our survey identified shifting utilization toward less
                                          expensive drugs as key to Medicaid pharmacy cost containment.
                                          Top strategies identified by States to stimulate this shift include
                                          prior authorization programs (29 States), preferred drug lists
                                          (20), generic substitution requirements (15), beneficiary cost
                                          sharing (10), and physician education (5). As Table 6 shows,
                                          many States use a combination of these strategies.


Table 6. Key State strategies to encourage use of lower cost drugs


Prior authorization only                                                                                    8
Preferred drug list only                                                                                    5
Beneficiary copayments only                                                                                 2
At least two of the following: prior authorization, preferred drug list, generic                            24
substitution, beneficiary copayments, physician education
Total                                                                                                       39
Source: OIG National Survey, 2002

                                          Prior Authorization is Key to Containing Costs in 29 States.
                                          Twenty-nine States cited prior authorization as a central cost
                                          containment measure. Federal statute allows States to require
                                          approval of a prescription before its dispensed. 33 According to
                                          CMS, the statute “affords States broad authority and flexibility
                                          to implement a prior authorization program in order to secure
                                          cost savings for the Medicaid program.”34

                                          In general, a State’s prior authorization process requires that a
                                          prescribing physician provide supplemental information before
                                          the pharmacist can dispense certain drugs. This information is
                                          provided to either the dispensing pharmacist or a pharmacist at
                                          the State’s designated call center. In practice, States report that
                                          call centers rarely deny provider requests. In the case of a
                                          denial, an appeals process is required to resolve the dispute.
                                          Prior authorization processes contain prescription drug
                                          expenditures in three primary ways. First, the required call-in
                                          process may deter physicians from prescribing drugs subject to


            O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS        15
                              prior authorization. According to State respondents, physicians
                              tend to prescribe drugs subject to prior authorization only when
                              medically necessary because they dislike the requirement to
                              consult a second party. Second, the call between the pharmacist
                              and the prescribing physician provides the opportunity to
                              educate physicians about more cost-effective drug therapies and
                              options. Third, prior authorization may prevent the
                              inappropriate dispensing of a drug when the beneficiary’s
                              medical and drug histories do not meet clinical criteria for
                              approving the prior authorization request. States can use prior
                              authorization as a cost containment strategy itself, or to enforce
                              other cost containment measures, such as preferred drug lists,
                              generic substitution requirements, or script limits.
                              States’ use of administrative disincentives to prescribing drugs
                              subject to prior authorization include telephone and written
                              authorization processes. Six States report requiring the
                              pharmacy to contact the prescribing physician, who must then
                              contact a clinical pharmacist at the State’s call center. The
                              physician must provide specified information about the
                              beneficiary’s medical history, diagnosis, or other information to
                              make the case that an alternative drug is unacceptable. Two
                              States require the prescribing physician to provide written
                              authorization before the pharmacy will dispense the drug.
                              Barriers to Prior Authorization. Though prior authorization is a
                              common cost containment measure, 18 States report facing provider
                              and/or pharmacist opposition to its implementation. Twenty-one
                              States report that providers and pharmacists oppose the
                              administrative burdens required under prior authorization.
                              However, five States indicated that physicians have expressed
                              appreciation of the States’ efforts to monitor beneficiaries’ use of
                              prior authorization-targeted drugs. Eight States respond to provider
                              concerns about prior authorization by conducting outreach to
                              physicians and pharmacists. These States attempt to include
                              provider input into their decisions regarding the prior authorization
                              process and the selection of drugs to be subject to prior authorization.

                              For example, New York posts online forms for providers to use to
                              request that a drug be exempt from prior authorization
                              consideration. Four States also report extensive efforts to educate
                              providers on the prior authorization process and appeal procedures.


O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS   16
                              Seventeen States indicated that opposition from pharmaceutical
                              manufacturers acts as a barrier to implementing prior
                              authorization. These States report that, in general,
                              manufacturers oppose any State-imposed restrictions on
                              prescribing. In one State, pharmaceutical manufacturers
                              successfully lobbied to require that manufacturers be notified in
                              advance when one of their drugs is considered for inclusion on
                              the prior authorization list.
                              Fifteen States also reported opposition to prior authorization
                              from consumer interest groups. Medicaid regulations require a
                              response to a prior authorization request within 24 hours and
                              require pharmacists to dispense a 72-hour supply of the drug in
                              emergency situations. Nonetheless, interest groups report
                              concern about the potential for delays in beneficiary access due
                              to perceived difficulty navigating the prior authorization
                              process.
                              Cost Savings Attributed to Prior Authorization. States conveyed
                              difficulty measuring cost savings attributable to prior
                              authorization. The effects caused by prior authorization on
                              prescription drug use patterns and expenditures are difficult to
                              distinguish from the effects of other factors. In our survey, five
                              States reported actual cost savings that they attributed to prior
                              authorization. Some States measured savings attributed to
                              prior authorization in general, while other States specified
                              savings associated with prior authorization for specific drugs or
                              classes of drugs. Table 7 breaks out the cost savings measured
                              by these five States.




O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS   17
             Table 7. Actual/Projected Savings from Prior Authorization

                        Actual/Projected        Savings as Percent
                                                                                     Specific Drugs or Drug Classes
     State              Annual Savings           of State’s FY 01
                                                                                     (as applicable)
                          (in millions)         Drug Expenditures
     FL                       $89                           7.6%                     N/A
     WV                       $13.9                         6.8%                     N/A
     WY                       $1.1*                         4.2%                     2 classes: proton pump inhibitors and COX-2
                                                                                     inhibitors
     AK                       $1.7 #                        3.7%                     3 drugs in opioid class (pain medication)
     WA                       $2.5                          0.7%                     One class: non-steriodal anti-inflammatory drugs
     Total                    $108.2                            -                    -
             Source: OIG National Survey, 2002

* Wyoming measured $180,000 in savings over 2 months. 	We used this rate to estimate annual savings.
# Alaska measured $800,000 in savings over 5.5 months. We used this rate to estimate annual savings .



                                             Eleven additional States reported estimated cost savings from
                                             prior authorization. States estimated prior authorization cost
                                             savings ranging from $1 million to $18 million per year, as
                                             shown in Table 8. In some cases, estimated savings reflect the
                                             implementation of prior authorization for specific drugs or
                                             classes of drugs.

     Table 8. Estimated Savings from Prior Authorization

                    Estimated                Savings as Percent
                                                                                 Specific Drugs or Drug Classes
State               Annual Savings           of State’s FY 01
                                                                                 (as applicable)
                    (in millions)            Drug Expenditures
ID                             $10.5                   12.5%                     4 classes: proton pump inhibitors, COX-2 inhibitors,
                                                                                 non-steroidal anti-inflammatory drugs, and non-
                                                                                 sedating antihistamines
OK                             $11                      8.4%                     N/A

NE                             $9.8                     7.0%                     N/A

MN                             $7.1                     3.4%                     N/A

MO                             $18                      3.3%                     One class: anti-ulcer drugs

NH                             $2.1                     2.7%                     N/A

PA                             $11                      2.0%                     One drug: Oxycontin

HI                             $1                       1.7%                     One drug: Oxycontin

KS                             $1.5                     1.0%                     One class: COX-2 inhibitors

NC                             $4.7                     0.6%                     N/A

Total                          $76.7                        -                    -
     Source: OIG National Survey, 2002



               O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS                       18
                                   Finally, two States reported measuring the impact of prior
                                   authorization on the use of selected drugs. Nevada estimates a
                                   75 to 80 percent decrease in utilization and a 74 to 78 percent
                                   decrease in expenditures on each of two classes of drugs, protein
                                   pump inhibitors and COX-2 inhibitors, subject to prior
                                   authorization. Washington reports that generic Ranitidine use
                                   within its therapeutic class, H2 receptor antagonists, increased
                                   from 69 to 97 percent the month following implementation of
                                   prior authorization for brand name drugs in that class. e
                                   Twenty States Report that Preferred Drug Lists are Central to Cost
                                   Containment.
                                   When asked to identify their top cost containment strategies, 20
                                   States reported that a preferred drug list (PDL) is central to
                                   their State’s efforts to contain Medicaid prescription drug
                                   expenditures. Though private health insurers routinely restrict
                                   access to high-priced drugs through the use of closed
                                   formularies, the Federal Medicaid statute prohibits States from
                                   implementing a formulary without means of accessing excluded
                                   drugs. 35 As an alternative, PDLs enable States to contain
                                   prescription drug costs and promote clinical effectiveness by
                                   encouraging physicians to prescribe less costly, therapeutically–
                                   appropriate drugs. At the same time, States must permit access
                                   to non-preferred drugs through an exception process. States
                                   strongly encourage physicians to prescribe preferred drugs
                                   through outreach and education efforts or by creating
                                   administrative disincentives to prescribing non-preferred drugs.
                                   In this section we highlight Florida’s, Oregon’s, Vermont’s, and
                                   Michigan’s use of preferred drug lists to contain costs.
                                   Nationally, these States have the most experience with PDLs
                                   and emphasize that PDLs are their central strategy to
                                   containing Medicaid pharmacy costs. They are also recognized
                                   as leaders in this area by other States and Medicaid pharmacy
                                   experts. Finally, these four States exemplify a range of
                                   approaches to creating PDLs and to using PDLs to stimulate a
                                   shift toward lower cost-alternative drugs.




                       e Proton pump inhibitors and H receptor antagonists are both classes of drugs used to treat
                                                       2
                       gastrointestinal problems, including ulcers and acid reflux disease. COX-2 inhibitors are a type of non­
                       steriodal, anti-inflammatory drug (NSAID) used to treat pain and inflammation.


O E I - 05 - 02 - 0 0 6 8 0        STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS                    19
                                     Preferred Drug Selection. While PDLs are created using both
                                     cost and clinical criteria, States use different types of
                                     information and development processes to determine which
                                     drugs to include on their preferred lists. These differences affect
                                     what type of clinical and cost data are considered, as well as
                                     which decision makers are involved in the preferred drug list
                                     development process.
                                     By State law, Oregon incorporates both clinical evidence-based
                                     research on drug efficacy and public input into the preferred
                                     drug selection process. 36 Oregon’s evidence-based research
                                     provides comparative effectiveness and safety information for
                                     each drug in a class. Through a series of State-wide public
                                     meetings, a commission identifies effective drugs that are
                                     available at the lowest AWP. Oregon’s Medicaid agency uses
                                     these recommendations and public input to identify a
                                     benchmark drug they determine to be the most effective
                                     available for the best possible price.37 PDL includes this
                                     benchmark drug and the other less expensive drugs in that
                                     class. f
                                     Unlike Oregon, which compares drugs’ relative merits to each
                                     other, Vermont uses clinical drug data, which compares
                                     individual drugs to a placebo to determine their effectiveness
                                     and suitability for inclusion on a PDL.38 Vermont’s Medicaid
                                     agency prioritized which drug classes to place on their PDL,
                                     based on the (1) existence of generic alternatives, and
                                     (2) amount spent on each drug class. Vermont’s contracted
                                     pharmacy benefits manager reviewed the clinical and financial
                                     merits for each drug and developed an initial list of drugs. The
                                     State’s Drug Utilization Review board used this list and public
                                     comments to determine the State’s final PDL.
                                     Because most drugs are considered clinically effective, cost
                                     ultimately determines which drugs are included on Vermont’s
                                     preferred list. However, the State’s Drug Utilization Review
                                     board retains the right to include a more expensive drug on the
                                     PDL for clinical reasons.
                                     Linking Supplemental Rebates to Preferred Drug Lists. Florida,
                                     Michigan, and Vermont aim to achieve lower net prices and


                       f   All drugs deemed effective with AWP under 105 percent of benchmark are on the Oregon PDL.


O E I - 05 - 02 - 0 0 6 8 0          STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS              20
                                     greater cost savings with their PDLs through State-negotiated
                                     supplemental rebates.
                                     Like Oregon and Vermont, Florida combines clinical and
                                     financial information to determine its PDL. In Florida, a
                                     contracted vendor researches clinical data and ranks the
                                     effectiveness of each drug in a class. In addition, manufacturers
                                     submit price bids for each drug. The vendor combines clinical
                                     and cost data and recommends drugs that are “effective, yet
                                     relatively inexpensive.” A committee of physicians and
                                     pharmacists hold public meetings and then make the final PDL
                                     designations.
                                     Florida’s process of soliciting manufacturers’ bids affords the
                                     State the opportunity to reap enhanced cost savings as
                                     manufacturers compete to offer the lowest priced drug in each
                                     class. State law requires that manufacturers’ bids offer a total
                                     rebate of at least 25.1 percent of the average manufacturer
                                     prices. 39 g Through competition, Florida has received
                                     substantially greater rebates than this minimum.
                                     Vermont and Michigan offer manufacturers of non-preferred
                                     drugs the opportunity to bring their drug costs “in line” with
                                     clinically-preferred drugs through supplemental rebates.
                                     Michigan identifies a reference-price drug for each class, and
                                     manufacturers of all drugs above that price must provide a
                                     supplemental rebate to be included on the preferred list. In
                                     addition, Michigan, Vermont, South Carolina, and Wisconsin
                                     are partnering to negotiate supplemental rebates from
                                     pharmaceutical manufacturers. It is the first time that States
                                     are partnering to negotiate prices for the Medicaid program.
                                     State officials estimate that States are likely to see savings of 10
                                     to 15 percent from enhanced rebates and better pharmacy
                                     benefits management.
                                                            40


                                     Stimulating the Use of Preferred Drugs. States’ ability to contain
                                     costs through PDLs depends upon the extent to which
                                     physicians prescribe preferred versus non-preferred drugs. One
                                     way States promote preferred drugs is by creating
                                     administrative disincentives to prescribing non-preferred drugs.
                                     Florida and Michigan require prior authorization for non-


                       g   Manufacturers’ bids include both the Federal and supplemental rebate.


O E I - 05 - 02 - 0 0 6 8 0          STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS    21
                              preferred drugs. Though prior authorization requests are
                              generally granted, the process itself deters physicians from
                              making prior authorization requests, unless the non-preferred
                              drug is medically necessary.
                              States also conduct provider outreach and education to facilitate
                              and encourage the use of preferred drugs. Oregon and Vermont
                              allow physicians to prescribe non-preferred drugs through a
                              prescription-based notation, which presents a lesser
                              administrative burden to obtaining these drugs. Oregon allows
                              reimbursement of non-preferred drugs if doctors indicate “no
                              substitution,” “dispense as written,” or “brand medically
                              necessary.” Vermont physicians must indicate a clinical reason
                              why a non-preferred drug is needed.
                              Both Oregon and Vermont emphasize collaboration with
                              physicians and beneficiaries to further encourage use of the
                              PDL. These States impress upon physicians and beneficiaries
                              the importance of containing drug costs to maintain existing
                              Medicaid coverage and services. Additional information is
                              provided to physicians on generic and low-cost brand name
                              drugs to counter balance pharmaceutical representatives’ efforts
                              to promote their more costly brand drugs. Oregon, in particular,
                              credits its open process with lending needed credibility to a
                              system which relies on the voluntary compliance of physicians.
                              Initially, Medicaid providers opposed Vermont’s PDL, which
                              State respondents attributed to insufficiently planning the
                              implementation of the PDL. In response, Vermont’s Medicaid
                              agency collaborated successfully with the Vermont Medical
                              Association to implement a physician education and outreach
                              program to explain PDL procedures and emphasize the
                              necessity of this strategy to maintain Medicaid services.
                              Vermont continues to assess prescribing of non-preferred drugs
                              to determine if further intervention is necessary.
                              Barriers to PDLs. Nationally, 18 States cited barriers related to
                              the use of PDLs. The most common barriers related to
                              opposition from pharmaceutical manufacturers (17 States),
                              consumers (13 States), physicians (7 States) and pharmacy
                              representatives (3 States). In addition, some States raised
                              concerns about approval delays associated with CMS’s State



O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS   22
                              plan amendment process, which, in turn, delayed
                              implementation of their preferred drug list.

                              As a response to stakeholder concern, States may exempt
                              certain drug classes, specific drugs, or beneficiaries with certain
                              illnesses from their PDL. This compromise limits States’ ability
                              to contain costs. In Oregon, mental illness, HIV/AIDS and
                              cancer drugs, which represent over 60 percent of the State’s
                              Medicaid drug expenditures, are exempted from the PDL. That
                              is, all FDA-approved drugs in these classes are available to
                              Medicaid beneficiaries. Florida also exempts mental health and
                              HIV/AIDS drugs from its PDL requirements. Vermont
                              designated preferred drugs within the psychotropic drug class,
                              but allows individuals with serious mental illness to access any
                              prescribed psychotropic drug.
                              In September 2002, CMS issued a State Medicaid director’s
                              letter clarifying a State’s ability to create PDLs and
                              supplemental rebate agreements with drug manufacturers.
                              Eleven States in our survey commended CMS for this particular
                              guidance and found it a useful support against pharmaceutical
                              industry opposition.
                              Some Oregon respondents report that the Federal law
                              preventing States from disclosing Federal Medicaid rebate
                              information is a significant barrier. These respondents believe
                              that the law hinders a true cost analysis because the State
                              cannot publicly disclose Federal rebate pricing information
                              when deciding which drugs to include on the PDL. Florida, on
                              the other hand, overcomes this potential barrier by temporarily
                              closing its public meetings when discussing proprietary pricing
                              information. However, Oregon’s State policy mandating
                              information sharing and a completely open process for PDL
                              decisions may prevent the State from adopting Florida’s
                              strategy.
                              Cost Savings Attributed to PDLs. Through their PDLs, States
                              seek to shift beneficiaries’ drug use toward less-costly preferred
                              drugs. Restrictive formularies in the private sector typically
                              stimulate an 80 to 90 percent market shift. State Medicaid
                              programs generally expect to achieve a lesser shift due to
                              required formulary exception procedures. However, Michigan
                              and Florida estimate an 80 to 90 percent market shift toward

O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS   23
                                  preferred drugs in particular classes. Oregon achieved a 30 to
                                  40 percent shift in the first quarter of PDL implementation.
                                  Oregon officials expect to save less money with their PDL than
                                  those States with stricter exception processes.
                                  A PDL can contain costs through a combination of (1) initial
                                  savings, as beneficiaries switch to lower cost drugs; (2) cost
                                  avoidance, as beneficiaries remain on lower cost drugs; and
                                  (3) supplemental rebates, if applicable. After implementation
                                  and initial savings are realized, a PDL becomes a long term cost
                                  avoidance strategy that States may use to stabilize their
                                  Medicaid pharmacy budgets.
                                  PDLs have the potential to significantly reduce State Medicaid
                                  pharmacy costs. Table 9 lists the savings attributed to PDLs by
                                  these four States. Florida saved $127 million in FY 2001
                                  through its PDL and supplemental rebate provision. Michigan
                                  estimates saving $850,000 per week. Michigan’s overall annual
                                  savings measurement of $45 million exceeds their initial savings
                                  projections. 41 While Oregon and Vermont have implemented
                                  their PDLs more recently, they have also realized cost savings.
                                  Oregon estimates that its PDL will save $6 to $8 million in its
                                  first year of implementation. In the first 6 months of
                                  implementation, Vermont estimates a $2.8 million comparative
                                  savings of the three most costly classes of drugs on the PDL.

                               Table 9. Reported Market Shift and Cost Savings from PDLs

                                                                                                         Savings as
                                                      Estimated                                          Percent of State’s
                                State                                           Savings in First Year
                                                      Market Shift                                       FY 01 Drug
                                                                                                         Expenditures
                                Florida               90%                       $127 million                   10.8 %
                                Michigan              80 to 90%                 $45 million                     9.5%
                                Vermont               Not available             $2.9 million (6 months          7.1%
                                                                                only)
                                Oregon                30 to 40%                 $6 to 8 million              3.1 to 4.1%
                                                                                (projected)
                              Sources: OIG National Survey and Interviews with State Medicaid Staff, 2002


                                  Two additional States measured savings from PDLs. Kentucky
                                  saved $8.5 million from April to June 2002 from establishing a
                                  preferred drug in one therapeutic class, proton pump inhibitors.
                                  Massachusetts reported $4 million in savings accrued from

O E I - 05 - 02 - 0 0 6 8 0       STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS                          24
                                        August through November 2002. Six other States provided
                                        projections of savings they expect from PDLs. See Appendix A
                                        for information on these projections.
                                        Fifteen States Seek to Increase Generic Substitution.
                                        Fifteen States report either encouraging or requiring generic
                                        substitution to shift utilization towards generic drugs as central
                                        to their cost containment effort. On average, brand name drugs
                                        cost about three times more than their generic equivalents, so
                                        an increase in generic substitution can have a substantial fiscal
                                        impact. For example, Massachusetts Medicaid staff report that
                                        a State initiative requiring prior authorization for brand name
                                        drugs with available generic equivalents saved the State $29
                                        million from December 2001 to August 2002.
                                        To contain costs through the use of generics, Florida limits
                                        beneficiaries to four brand name prescriptions per month, while
                                        placing no restrictions on generic prescriptions. However,
                                        beneficiaries may obtain additional brand name drugs through
                                        prior authorization. State Medicaid officials found that their 4
                                        brand limit saves $100 million annually, which represents over
                                        8 percent of their Medicaid pharmacy expenditures in FY 2001.
                                        Florida Medicaid budget analysts determined that the policy has
                                        resulted in a shift to the use of generic drugs rather than a
                                        decline in overall utilization.

LIMIT QUANTITY: While Required to Maintain
                                                          State Medicaid agencies may
Sufficient “Amount, Duration, and Scope” of
                                                          limit prescription drug utilization
Benefits, 25 States Limit the Quantity of Drugs
                                                          as long as these restrictions
Used as a Central Strategy to Contain Costs               maintain sufficient “amount,
                                                          duration and scope,” as required
                          under Federal Medicaid regulations. That is, any State-imposed
                          benefit limit must maintain a sufficient level of the benefit to
                          reasonably achieve its intended purpose. To contain drug
                          expenditures, States frequently limit utilization through drug
                          quantity limits, targeted drug utilization review programs, and
                          pharmacy lock-in programs. Currently, based on national data,
                          44 States limit prescription drug utilization in 1 or more of these
                          ways, and 25 States chose to report these limits as top cost
                          containment strategies in our survey.44 These limits include
                          restrictions on drug quantities, restrictions through prospective


          O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS   25
                                         drug utilization review, and restrictions through pharmacy lock
                                         in. Several States use a combination of these strategies, shown
                                         in Table 10.

                              Table 10. Key State strategies that limit drug use

                                 Quantity limits only                                                      8

                                 Prospective drug utilization review only                                  6
                                 At least two of the following: quantity limits, prospective drug          11
                                 utilization review, pharmacy lock in
                                 Total                                                                     25

                              Source: OIG National Survey, 2002



                                         Quantity Limits are Important in 18 States.
                                         Eighteen States report quantity limits as important to cost
                                         containment. Typically, States limit the (1) number of
                                         prescriptions filled in a specified time period, such as six
                                         prescriptions per month; (2) amount of a drug, such as a
                                         maximum daily dosage; or (3) frequency of dispensing a drug,
                                         such as limits on early refills. States often allow exemptions
                                         from these limits for specific therapeutic drug categories,
                                         beneficiaries with certain illnesses, and particular subsets of the
                                         population, such as children and pregnant women.

                                         Six States specified limits on the number of prescriptions per
                                         month as a key cost saving strategy. These prescription limits
                                         ranged from 3 to 10 drugs allowed per month. Four of these six
                                         States allow beneficiaries to obtain additional prescriptions
                                         through prior authorization. Texas prohibits dispensing more
                                         than three prescriptions per month. However, beneficiaries may
                                         obtain a 180-day drug supply with each prescription and stagger
                                         the filling of each prescription which, in effect, allows up to 9
                                         prescriptions per month. Arkansas limits beneficiaries to six
                                         prescriptions per month, and State Medicaid officials assert that
                                         this limits fraud and abuse.
                                         Ten States reported restrictions on drug amounts, daily dosages,
                                         or number of refills dispensed in an effort to decrease drug
                                         waste and to prevent over-utilization. Eight of these States
                                         specified restrictions on the amount of drug dispensed, such as a
                                         34-day supply, as an effective cost containing strategy.

O E I - 05 - 02 - 0 0 6 8 0              STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS        26
                                         Additionally, early refill restrictions are an important means to
                                         contain costs in seven States. Early refill limits require that a
                                         certain percentage, commonly 75 percent, of a medication be
                                         used before obtaining a refill. This helps to reduce waste by
                                         ensuring that refills are filled only when necessary.
                                         Cost Savings Attributed to Quantity Limits. Two States reported
                                         cost savings associated with limits on the number of
                                         prescriptions per month. Mississippi projects $5.4 million in
                                         savings from reducing the number of prescriptions allowed from
                                         10 to 7 per month. Maryland projects savings of $1.2 million per
                                         year to result from its pending limit of 10 prescriptions per
                                         month.
                                         Four States identified cost savings from early refill limits.
                                         Wyoming only allows refills after 80 percent of the previously
                                         dispensed supply is used and reported, saving nearly $900,000
                                         per year, or 3.5 percent of their Medicaid drug budget.
                                         Additional cost savings information is summarized in Table 11.


                             Table 11. Actual and Projected Cost Savings from Quantity Limits

                                                                                                           Savings as Percent
                                                                                        Annual Savings
                                 State          Type of Limit                                               of State’s FY 01
                                                                                        (in millions)
                                                                                                           Drug Expenditures
                                 MO             Early Refill                            $51 (projected)          9.4%

                                 WY             Early Refill                            $0.9*                    3.5%

                                  ID            Early Refill                            $2.3 (projected)         2.7%

                                  NJ            Days Supply                             $12                      2.3%

                                 MA             Early Refill                            $13.3 million#           2.2%

                                 MS             7 prescriptions/month+                  $5.4 (projected)         1.3%

                                 UT             Days Supply                             $1.1                     1.2%

                                  KS            Days Supply                             $1.5 (projected)         1.0%

                                 MD             10 prescriptions/month                  $1.2 (projected)         0.6%

             Source: OIG National Survey, 2002
* Wyoming saved $224,000 in 3 months; we used this rate to estimate annual savings.
# Massachusetts saved $10 million in 9 months; we used this rate to estimate annual savings.
+ Mississippi reduced its limit from 10 prescriptions per month to 7 prescriptions per month.




   O E I - 05 - 02 - 0 0 6 8 0           STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS                    27
                              Prospective Drug Utilization Review is a Cost Containment Strategy in
                              14 States.
                              In addition to preventing adverse health outcomes, 14 States
                              consider prospective drug utilization review (DUR), in which
                              patient drug history is reviewed to detect therapeutic
                              duplication, contraindications, drug interactions, and other
                              inappropriate use, to be a top cost containment measure. All
                              States are required to conduct prospective DUR prior to
                              dispensing a drug.45 Prospective DUR can contain pharmacy
                              costs by preventing duplicative, medically unnecessary, or
                              contraindicated prescriptions from being dispensed. Missouri is
                              one of several States enhancing their prospective DUR program
                              to link patients’ drug history with their medical history to
                              further ensure patient safety and medically-appropriate drug
                              use.
                              Seven States reported yearly cost savings resulting from
                              prospective DUR, ranging from $300,000 in Iowa to $27 million
                              in Louisiana. Additional cost savings are listed in Table 12.
                                    Table 12. Cost Savings from Prospective DUR

                                                                                           Savings as Percent
                                                               Annual Savings
                                           State                                            of State’s FY 01
                                                               (in millions)
                                                                                           Drug Expenditures
                                           OR                  $20                               10.4%

                                           AK                  $4.8                              10.1%

                                           LA                  $27                               5.7%

                                           CT                  $2.8                              1.1%

                                           TX                  $5.3 (projected)                  0.5%

                                           NJ                  $1.6                              0.3%

                                           IA                  $0.3 (projected)                  0.2%

                                    Source: OIG National Survey, 2002


                              Pharmacy Lock-in Programs Limit Drug Costs in Six States.

                              Six States identified pharmacy lock-in programs as a key cost
                              containment strategy. Pharmacy lock-in programs require that
                              beneficiaries fill their Medicaid prescriptions in one pharmacy or
                              pharmacy chain. Typically, States use retrospective DUR data
                              to identify beneficiaries whose drug utilization patterns may
                              justify being locked in to a particular pharmacy. State criteria

O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS                   28
                              for lock in ranges from evidence of abuse, resale of drugs, or
                              misuse of Medicaid cards to general use patterns that indicate a
                              high risk for abuse or misuse. Oregon is the only State
                              implementing lock-in programs for all Medicaid beneficiaries.
                              Last year, Wyoming locked in only 70 beneficiaries, all of whom
                              filled prescriptions for pain medications from two or more
                              physicians in two or more pharmacies. Wyoming projected a
                              potential range of annual savings from their lock-in program of
                              $39,000 to $98,000.
                              Arkansas estimated $10,000 in savings in the first month of
                              lock-in implementation, but expects savings to grow to $123,000
                              per month when the program is fully operational. In Arkansas,
                              beneficiaries have two chances to respond to warning letters
                              citing concern about their pharmacy use before Arkansas
                              imposes a lock in. As a result, less than half of those
                              beneficiaries initially targeted, are ultimately locked in.




O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS   29
C O N C L U S I O N 





                              Escalating Medicaid drug expenditures combined with strained State
                              budgets have led States increasingly to seek strategies to contain
                              Medicaid drug costs. Federal Medicaid law and regulation prevent
                              States from benefiting from some cost containment tools widely used
                              by private purchasers. However, States exercise their flexibility
                              within Federal Medicaid parameters to employ three main pharmacy
                              cost containment strategies. These strategies include drug
                              reimbursement limits, tools to shift utilization toward lower cost
                              drugs, and drug utilization limits.
                              Maximizing States’ ability to contain drug costs can provide a
                              significant fiscal benefit to both State and Federal Medicaid budgets.
                              Thirty-seven States provided information on drug cost savings
                              ranging up to $127 million in annual savings attributed to various
                              drug cost containment measures within those States.
                              However, States face significant challenges to maximizing drug cost
                              savings. States report that they lack accurate drug pricing
                              information upon which to set drug reimbursement limits. States also
                              identified two primary constraints to shifting utilization toward lower
                              cost drugs. First, Federal law, such as the prohibition on closed
                              formularies and limits on beneficiary cost sharing, restrict States’
                              ability to influence drug utilization patterns. Second, States’ efforts
                              to shift utilization have met with resistance from stakeholders, such
                              as pharmaceutical manufacturer representatives and some patient
                              advocacy groups.
                              In 2002, CMS issued a letter to State Medicaid directors offering
                              support and guidance on how to implement a preferred drug list
                              within Federal law. States found this CMS document beneficial in
                              their efforts to garner needed support to implement a preferred drug
                              list.
                              In FY 2002, CMS centralized its efforts to provide guidance regarding
                              States’ Medicaid pharmacy programs through shifting responsibility
                              for State plan amendment approval from CMS regional offices to its
                              headquarters location. We support CMS’s efforts to provide
                              consistent, timely, and pertinent information to State Medicaid
                              pharmacy representatives.



O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS   30
A P P E N D I XX 
~ A



        Additional State Savings Projections for Preferred Drug Lists (PDLs)

                              In addition to the savings reported by Florida, Michigan, Oregon,
                              and Vermont, two additional States reported preliminary cost
                              savings from newly implemented PDLs. Kentucky saved $8.5
                              million from April to June 2002 by establishing a preferred drug in
                              a single therapeutic class, proton pump inhibitors. Massachusetts
                              reported $4 million in savings accrued from August through
                              November 2002. Six other States, listed in Table 13 below,
                              provided projections of savings they expect from PDLs.


                              Table 13. PDL Savings Projections from Additional States

                                                                                                Savings as Percent
                                                              Projected Annual                  of State’s FY 01
                              State                           Savings from PDL                  Drug
                                                                                                Expenditures

                              Idaho                            $9 million                             10.7%
                              New Mexico                       $4 million                             8.7%
                              Wyoming                          $2.05 million                          8.0%
                              Alaska                           $3.6 million                           7.6%
                              Maryland                         $8 million                             4.1%
                              Kansas                           $4.8 million                           3.2%

                              Source: OIG National Survey, 2002




O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS                        31
A C K N O W L E D G M E N T S 





                              This report was prepared under the direction of William Moran, 

                              Regional Inspector General for Evaluation and Inspections in the 

                              Chicago Regional Office and Natalie Coen, Deputy Regional 

                              Inspector General for Evaluation and Inspections. Other principal 

                              Office of Evaluation and Inspections staff who contributed include:

                              Emily Melnick, Team Leader


                              Erin Lemire, Program Analyst


                              Jennifer Gera, Intern


                              Linda Frisch, Program Specialist 


                              Tricia Davis, Director, Medicare and Medicaid Services Branch




                              Technical Assistance 


                              Barbara Tedesco, Mathematical Statistician 





O E I - 05 - 02 - 0 0 6 8 0   STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS   32
E N D                         N O T E S 





                       1.     This figure is based on data from Centers for Medicare & Medicaid
                              Services, Center for Medicaid and State Operations, Financial
                              Management Reports, Fiscal Year 2001. Available at
                              http://www.cms.gov/medicaid/mbes/ofs-64.asp

                       2.     Bruen, Brian. “States Strive to Limit Medicaid Expenditures for
                              Prescribed Drugs.” Prepared for the Kaiser Commission on Medicaid
                              and the Uninsured. Washington, DC; February 2002

                       3.     65 FR 69560, November 17, 2000. From the Federal Register Online via
                              Government Printing Office Access; http://wais.access.gpo.gov

                       4.     Kreling, David H., David A. Mott, Joseph B. Wiederholt, Janet Lundy,
                              Larry Levitt. “Prescription Drug Trends: A Chartbook Update.” Kaiser
                              Family Foundation. Washington, DC; November 2001

                       5.     This figure is based on data from Centers for Medicare & Medicaid
                              Services, Center for Medicaid and State Operations, Financial
                              Management Reports, Fiscal Year (FY) 2001 and FY 1997. Total
                              Medicaid expenditures (minus drug expenditures) increased 31 percent
                              from FYs 1997 to 2001; total Medicaid drug expenditures increased 94
                              percent during the same time period. Data available at
                              http://www.cms.gov/medicaid/mbes/ofs-64.asp

                       6.     National Association of State Budget Officers, http://www.nasbo.org

                       7.     Associated Press. “In Budget Crises, State Leaders Call for US Aid.”
                              New York Times, Final, Section A, Page 15, Column 1; July 25, 2002

                       8.     National Association of State Budget Officers, http://www.nasbo.org

                       9.     Bruen, Brian. “States Strive to Limit Medicaid Expenditures for
                              Prescribed Drugs.” Prepared for the Kaiser Commission on Medicaid
                              and the Uninsured. Washington, DC; February 2002

                       10. 52 FR 28648, July 31,1987

                       11. 42 CFR § 447.332

                       12. 42 CFR § 447.331



O E I - 05 - 02 - 0 0 6 8 0        STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS   33
                       13. 42 CFR § 447.301


                       14. 52 FR 28648, July 31, 1987


                       15. 42 U.S.C. § 1396r-8(a)


                       16. 42 CFR § 440.230


                       17. 42 U.S.C. § 1396r-8(d)(4)


                       18. State Medicaid Director Letter #02-014, Center for Medicaid and State 

                           Operations, Centers for Medicare & Medicaid Services, September 18, 

                           2002


                       19. 42 U.S.C. § 1396o(a)(3)


                       20. 42 CFR § 447.54


                       21. 42 U.S.C. § 1396o(e)


                       22. 42 U.S.C. § 1396r-8


                       23. CMS Notice of Final Rule, 52 FR 28648, (July 31, 1987), which sets 

                           Medicaid pharmacy reimbursement limits


                       24. National Association of Chain Drug Stores, Industry Facts-at-a-Glance, 

                           www.nacds.org, accessed February 26, 2003


                       25. Several OIG audits have found evidence that States’ estimated 

                           acquisition cost formulas overestimate pharmacies’ actual acquisition 

                           costs. These include “Medicaid Pharmacy: Additional Analyses of the 

                           Actual Acquisition Cost of Prescription Drug Products” (A-06-02-00041), 

                           “Medicaid Pharmacy: Actual Acquisition Cost of Generic Prescription 

                           Drug Products” (A-06-97-00011), and “Medicaid Pharmacy: Actual 

                           Acquisition Cost of Prescription Drug Products for Brand Name Drugs” 

                           (A-06-96-00030).


                       26. Office of Inspector General report “Cost Containment of Medicaid 

                           HIV/AIDS Drug Expenditures.” OEI-05-99-00611. July, 2001


                       27. State Medicaid Manual, Part 6, Section 6305.1





O E I - 05 - 02 - 0 0 6 8 0     STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS   34
                       28. Office of Inspector General report “Cost Containment of Medicaid
                           HIV/AIDS Drug Expenditures.” OEI-05-99-00611. July 2001

                       29. State Medicaid Manual, Part 6, Section 6305.1

                       30. Mohl, Bruce and Chris Reidy. “State Eases its Rate Curb on Druggists,”
                           Boston Globe. October 4, 2002

                       31. Childs, Siri. Washington Medicaid Pharmacy Manager. “Washington
                           State’s Experience with AWP Discounts.” August 2002

                       32. “Overview of Select State Maximum Allowable Cost (MAC) Programs.”
                           The Health Strategies Consultancy LLC. DRAFT report to CMS.
                           December 2002

                       33. 42 U.S.C. § 1396r-8(d)(5)

                       34. State Medicaid Director Letter #02-014, Center for Medicaid and State
                           Operations, Centers for Medicare & Medicaid Services, September 18,
                           2002

                       35. A State may establish a formulary if the State plan permits coverage of a
                           drug excluded from the formulary. 42 U.S.C. § 1396r-8(4)

                       36. Oregon Senate Bill 819, which became law on August 2, 2001

                       37. Oregon Department of Human Services, Pharmaceutical Services Billing
                           Guide - Rev.#3 -- July 1, 2002

                       38. Personal interview with Ann Rugg, Vermont State Medicaid Agency,
                           Novem ber 2002

                       39. Florida Statute 409.912

                       40. National Governors Association. “States Partner for Greater Discounts
                           on Medicaid Drugs.” March 6, 2003. Available at www.nga.org

                       41. National Conference of State Legislature’s Pharmaceutical Snapshot,
                           March 3, 2003. Available at www.nscl.org

                       42. 42 CFR § 447.54




O E I - 05 - 02 - 0 0 6 8 0     STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS    35
                       43. 	Rosenthal, Meredith B. “Promotion of Prescription Drugs to Consumers:
                            A Look at the Numbers.” The New England Journal of Medicine.
                            February 2002

                       44. 	National Conference of State Legislature’s Pharmaceutical Snapshot,
                            February 17, 2003. Available at www.ncsl.org

                       45. 42 U.S.C. § 1396r-8(g)




O E I - 05 - 02 - 0 0 6 8 0     STATE ST R A T E G I E S   TO   C ONTAIN M EDICAID D RUG C OSTS   36
